Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




  STATE CHILDREN’S HEALTH
INSURANCE PROGRAM (SCHIP)
     RENEWAL PROCESS




                   JANET REHNQUIST
                     Inspector General

                    September 2002
                    OEI-06-01-00370
                Office of Inspector General

                                   http://oig.hhs.gov
The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the department, the
Congress, and the public. The findings and recommendations contained in the inspections
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs.

Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of OI lead to criminal convictions,
administrative sanctions, or civil monetary penalties. The OI also oversees state Medicaid fraud
control units, which investigate and prosecute fraud and patient abuse in the Medicaid program.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. The OCIG imposes program exclusions and civil monetary
penalties on health care providers and litigates those actions within the department. The OCIG
also represents OIG in the global settlement of cases arising under the Civil False Claims Act,
develops and monitors corporate integrity agreements, develops model compliance plans,
renders advisory opinions on OIG sanctions to the health care community, and issues fraud
alerts and other industry guidance.
September 20, 2002
       /s/
Debra Robinson
Director, Regional Operations
Office of Evaluation and Inspections

OIG Memorandum Report: “State Children’s Health Insurance Program (SCHIP) Renewal

Process,” OEI-06-01-00370


Thomas A. Scully

Administrator

Centers for Medicare & Medicaid Services


Elizabeth M. Duke, Ph.D.

Administrator

Health Resources and Services Administration


Attached is a memorandum report that examines the State Children’s Health Insurance Program

(SCHIP) renewal process from the parents’ perspective and identifies opportunities for

improvement. 


We evaluated all 50 States’ SCHIP renewal application forms and instructions, notices, SCHIP

cards, States’ telephone customer services, and State SCHIP web sites. The most common way to

renew SCHIP eligibility is with mail-in forms (42 States) that typically are not user-friendly. Thirty-

three States provide SCHIP renewal instructions that are difficult to read and understand. Parents

are not notified in writing of the disapproval outcome of the renewal in 20 States, even though States

are required to send a written notice if eligibility is denied (SCHIP regulations at 42 CFR §

457.340). Although all States provide children an SCHIP card, only 12 States include an expiration

date, which could alert parents to the end of the eligibility period. Obtaining SCHIP renewal

information through States’ SCHIP customer service telephone lines was challenging. Only 14

States included renewal information of any kind on their State SCHIP web pages. 


States can improve their SCHIP renewal process by making small modifications. We suggest that

CMS take steps to ensure that States comply with the Federal regulation 

(42 CFR § 457.340) to issue final outcome notices if children are disenrolled. We encourage the

Centers for Medicare and Medicaid Services and the Health Resources and Services Administration

to work with States to provide user-friendly SCHIP renewal application forms and instructions,

SCHIP cards with coverage expiration dates, customer service telephone menus with a renewal

option, and web site access to general SCHIP renewal information. 

Page 2

You are welcome to provide comments but are not required to do so, since the report contains no
recommendations.

If you have any questions about this report or would like a meeting to discuss more detailed
information, please contact Elise Stein, Director, Public Health and Human Services at
(202) 619-2686.

Attachment
                        EXECUTIVE SUMMARY


OBJECTIVE

         To evaluate the State Children’s Health Insurance Program (SCHIP) renewal process from the
         parents’ perspective and identify opportunities for improvement.


BACKGROUND

         The State Children’s Health Insurance Program (SCHIP) allows States to expand health
         insurance coverage to certain low-income children. By September, 2001, more than 4.6
         million children who would otherwise be without health insurance were enrolled in SCHIP.
         Despite this progress, previous research suggests that eligible children are unintentionally
         disenrolled because their parents encounter difficulties navigating State SCHIP renewal
         processes, leaving them without health insurance.

         Our study examines the renewal process by simulating how parents might navigate that process.
         We collected renewal materials sent to parents from all 50 States. In addition, we accessed
         and evaluated telephone customer service lines and State SCHIP web sites. Our review of
         these information sources provides insight into limitations within the SCHIP renewal process.



FINDINGS

42 States Renew SCHIP By Mail; 6 Continue Coverage Based On Self-Reports;
2 Require In-Person Interviews

         <	        42 States require parents to complete and return forms by mail. Of these 42 States, 10
                   States provide user-friendly forms, e.g. plain language, adequate space and print size,
                   minimal duplicate information.
         <	        6 States instruct parents to self-report any changes in family status. Four of the six
                   States require parents to respond only if there are changes. Two States require parents
                   to sign and return a pre-printed form if there are no changes in family status, or to
                   update, sign and return the form if there are changes in status.
         <         2 States require in-person interviews to renew SCHIP.




SCHIP Renewal Process                                 i                                       OEI-06-01-00370
States Are Required To Send A Notice For Disapproval Of SCHIP Renewal, But 20
States Do Not

         SCHIP regulations (42 CFR § 457.340) require States to send parents a written notice if
         eligibility is denied, suspended or terminated. We found that seven States send disapproval
         notices only, nine States send approval notices only, and 11 States do not send a final outcome
         notice.

Although All 50 States Provide Children With An SCHIP Card, Only 12 Include An
Expiration Date On The Card

         The coverage dates on the card alert parents that SCHIP coverage must be renewed at the end
         of the eligibility period. It is an important reminder for parents who did not receive renewal
         materials in time, and prompts them to contact their SCHIP offices.

Parent Access To SCHIP Renewal Information Via Telephone Customer Service
And The Internet Is Limited

         Fifty-four percent of telephone calls to SCHIP customer services resulted in obtaining general
         SCHIP renewal information. Twenty-eight percent of the calls reached a person who was
         unable to provide the renewal information and/or told us to contact the case worker. Eighteen
         percent of calls resulted in either voice mail, a busy signal, or being on hold longer than 10
         minutes. Thirty-four States use automated telephone menu systems for SCHIP customer
         service lines, but none of the automated telephone systems have a menu option for SCHIP
         renewal information.

         While 47 States have SCHIP web sites, 14 provide SCHIP renewal information. Only one
         State web site offers detailed information about the renewal process, including a sample form.



CONCLUSIONS

         Renewing SCHIP coverage can be difficult for parents. We encountered difficulties obtaining
         information when we simulated parental contact even though we have greater knowledge of the
         system and are, therefore, better equipped to negotiate it. We identified problems with
         readability levels regarding renewal instructions and usability of forms. We noted the absence
         of written notification for parents regarding the outcome of the eligibility renewal process and
         helpful SCHIP information on SCHIP cards in some States. We also identified problems with
         obtaining general renewal information from SCHIP customer service telephone lines and State
         SCHIP web sites.




SCHIP Renewal Process                               ii                                       OEI-06-01-00370
OPPORTUNITIES FOR IMPROVEMENT

         We encourage the Centers for Medicare & Medicaid Services (CMS) and the Health
         Resources and Services Administration (HRSA) to work with States to incorporate the
         following:

         <         Take steps to ensure that States comply with the Federal regulatory requirement
                   (42 CFR § 457.340) to issue final outcome notices if children are disenrolled.
         <         Adopt user-friendly forms: offer plain language, adequate space and print size, and
                   minimize duplicate information.
         <         Include SCHIP coverage dates on the SCHIP card.
         <         Add a telephone menu option specifically for SCHIP renewal in those States that use
                   automated telephone systems.
         <         Provide specific renewal sections on State SCHIP web sites.




SCHIP Renewal Process                                iii                                     OEI-06-01-00370
                           TABLE                           OF                CONTENTS


                                                                                                                                         PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


     42 States Renew SCHIP By Mail; 6 Continue Coverage Based On Self-Reports; 2 Require In-

     Person Interviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


     SCHIP Renewal Instructions And Forms Can Be Difficult To Understand And Use . . . . . . . . . . . 8


     Parents Are Not Always Notified Of Final Renewal Outcomes . . . . . . . . . . . . . . . . . . . . . . . . . . 9


     Although All 50 States Provide Children An SCHIP Card, Only 12 States Include An Expiration 

     Date On The Card; 24 States Do Not Include The State SCHIP Program Name . . . . . . . . . . . 10


     Parent Access To SCHIP Renewal Information Via Telephone Customer Service And The Internet

     Is Limited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


     Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


OPPORTUNITIES FOR IMPROVEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDIX

     A: SCHIP Forms At Renewal Time . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


BIBLIOGRAPHY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20





SCHIP Renewal Process                                                                                                             OEI-06-01-00370
                                INTRODUCTION

OBJECTIVE

         To evaluate the State Children’s Health Insurance Program (SCHIP) renewal process from the
         parents’ perspective and identify opportunities for improvement.

BACKGROUND

         In 1997, Congress enacted the State Children’s Health Insurance Program (SCHIP) as Title
         XXI of the Social Security Act to expand health insurance coverage for certain low income
         children. A low-income child is generally defined in section 2110(b)(1) of the Act as a child
         whose family income exceeds the applicable Medicaid income level by not more than 50
         percent, or 200 percent of the federal poverty level (FPL), whichever is higher. SCHIP is a
         State-run program that entitles States to approximately $40 billion in Federal funds through
         2007. Like Medicaid, SCHIP is a joint State and Federal program; however, the Federal
         match for SCHIP is higher than that for the Medicaid Program. States have three options for
         covering uninsured children under Title XXI: to create a separate SCHIP program, expand
         Medicaid, or to combine the two approaches.

Enrollment and Disenrollment for SCHIP-eligible Children

         By 2000, all 50 States and the District of Columbia had received approval from the Centers for
         Medicare & Medicaid Services (CMS) to expand public health insurance coverage for children
         through SCHIP. By September 2001, CMS reported that more than 4.6 million children who
         would otherwise be without health insurance coverage were enrolled in SCHIP.1

         Despite the progress of SCHIP, eligible children still lack health care coverage. A July 2001
         report2 by the Urban Institute indicated that their analysis had “also identified a sizable subgroup
         of low-income uninsured children (18 percent) who were uninsured at the time of the survey but
         who had been enrolled in Medicaid or SCHIP in the past year.” In other words, these children
         had dropped out of the program. The report also indicated that there are many reasons for
         parents not enrolling or discontinuing their children in public health insurance programs.
         Reasons include administrative difficulties associated with enrollment and renewal, parents’ lack
         of knowledge about public health insurance programs, not wanting public insurance for their
         children, or feeling such insurance is not needed. According to the State Annual Reports,
         numerous States cited that many parents never responded to the SCHIP renewal notices.
         Children may also become ineligible for coverage because of changes in family income,
         coverage by private insurance, moving out of State, or aging out of the program.




SCHIP Renewal Process                                 1                                         OEI-06-01-00370
SCHIP Evaluation Efforts

         Different agencies within the Department of Health and Human Services (HHS) have been
         conducting studies regarding SCHIP disenrollments. The Assistant Secretary for Planning and
         Evaluation (ASPE) of HHS is conducting a congressionally mandated SCHIP evaluation to
         assess enrollment and disenrollment dynamics and to analyze the program’s affect on
         beneficiary access, service, and satisfaction in 10 States.3 The Agency for Healthcare
         Research and Quality (AHRQ) conducts SCHIP research through the Child Health Insurance
         Research Initiative (CHIRI). In one study by CHIRI, “The Consequences of States’ Policies
         for SCHIP Disenrollment,” a major finding was that the renewal process generates large
         disenrollments; about half of children previously enrolled are disenrolled at renewal time, but as
         many as 25 percent return within two months. The Centers for Medicare & Medicaid Services
         (CMS) is in the process4 of completing a project for model application forms and notices for
         SCHIP and Medicaid. In addition, several non-profit foundations published reports that mainly
         provided useful information regarding the mechanics of the renewal process, but they lacked
         information about what parents and/or guardians might experience when they navigate that
         process.

         The Office of Inspector General has issued nine SCHIP-related inspection reports in the last
         three years. The three most recent reports are: “State Children’s Health Insurance Program:
         Ensuring Medicaid Eligibles are not Enrolled in SCHIP” (OEI-05-00-00241), “State
         Children’s Health Insurance Program: Assessment of State Evaluation Reports” (OEI-05-00-
         00240), and “Federally Funded Health Centers and Low Income Children’s Health Care:
         Improving SCHIP Enrollment and Adapting to a Managed Care Environment” (OEI-06-98-
         00321). None of the previous OIG work examined the renewal process.

METHODOLOGY

Study Focus

         In this report, we described what parents of SCHIP-enrolled children in all 50 States5 may
         experience when they renew their children’s SCHIP eligibility. We focused on evaluating
         SCHIP renewal notices and application forms and accessing renewal information through
         SCHIP customer services.

Data Collection and Analysis

         We used both qualitative and quantitative approaches to focus on three distinct aspects of the
         renewal process to: 1) describe States’ program type and renewal process approach;
         2) review State SCHIP renewal materials and information sent to parents; and 3) assess States’
         SCHIP customer service via the telephone and the Internet. Our contacts with States’ SCHIP
         policy staff initially included requests for renewal materials and information; we also contacted
         them later in the study on an as-needed basis to clarify policy or questions raised by our data.


SCHIP Renewal Process                                2                                         OEI-06-01-00370
         SCHIP program types and renewal approach: We extracted SCHIP renewal information
         from the State Annual Evaluation, CMS’ web site, individual State SCHIP web sites, and
         recent publications by the Urban Institute, Kaiser Family Foundation, National Academy for
         State Health Policy, and other research institutes. These sources provided us with information
         about the SCHIP program plan and characteristics for each State. We constructed simple
         frequencies for program types (separate, combined, or Medicaid expansion programs) and for
         States’ approaches to the SCHIP renewal process itself.

         SCHIP Renewal Materials: From August 30 to September 30, 2001, we collected SCHIP
         renewal materials directly from individual State SCHIP offices including SCHIP renewal
         applications, renewal notices and follow-up letters, SCHIP cards, and any other relevant
         SCHIP renewal materials that the States were using at the time of our data collection. We
         received responses from all 50 States although three States did not provide all materials.6 We
         analyzed the content of all SCHIP renewal instructions received for readability by using the
         “Readability Statistics” tool in Microsoft Word. In addition, we developed a check list of
         criteria for systematically rating usability of the forms for renewal.

         Readability – The “Readability Statistics” tool uses both the Flesch-Kincaid Index and Flesch
         Reading Ease Scale. The Flesch-Kincaid Index measures the school-grade writing level.
         Materials written at the 7th to 8th grade reading level are the standard for what is readable by
         and suitable for the general public. The Flesch Reading Ease Scale provides scores based on
         sentence and word length: a score of 100 is “very easy to read”, 0 is “extremely difficult to
         read”, and 65 equates to “plain English”.

         Usability – We rated usability of the forms used at renewal time based on the form’s general
         appearance, adequacy of fields for information requested, and print size. The criteria for rating
         usability of forms were:

         C         Good: Form has ample ‘white space’ (so the form is not crowded), font size is
                         readable without difficulty, field size is large enough for writing in requested
                         information.
         C         Fair: A mixed rating, with some of the elements rated ‘good’ and some rated ‘poor’.
         C         Poor: Appearance of form is crowded/cluttered, font size is small and difficult to read,
                         fields size is too small for writing in information requested.

         SCHIP cards: We also reviewed SCHIP cards to determine if the card displayed coverage
         dates and the States’ unique SCHIP program names. These cards are directly issued from the
         State or the Managed Care Organization that is under contract with the State to provide
         SCHIP services.

         Parent access for SCHIP renewal via telephone and the Internet: Individual SCHIP
         customer service telephone lines in all 50 States were evaluated from two aspects. First, we
         examined success rates in obtaining renewal information using telephone


SCHIP Renewal Process                                 3                                        OEI-06-01-00370
         numbers shown in renewal materials that the States sent us; we also noted whether customer
         service representatives were helpful and courteous when we requested assistance or
         information. Second, we analyzed types of telephone systems with particular emphasis on
         renewal information as an option on automated menus.

         From October 24th to November 26th, 2001, we called individual State SCHIP customer
         service telephone numbers obtained from the following sources: States’ SCHIP renewal
         materials, SCHIP cards, and States’ SCHIP web sites. We created a structured protocol for
         telephone calls to systematize this portion of the data collection. This protocol included a set of
         questions asked of all customer service representatives, an assessment of telephone systems
         (automatic vs. live person), and the helpfulness of the person who answered the phone. To
         minimize bias, we systematically made multiple calls to each State using different days and times
         of day. We made at least four telephone calls to an SCHIP telephone number for each State.
         The telephone calls were unannounced, and we did not reveal our identity or research intention.
         As part of the simulation, we tried to proactively obtain information about renewing SCHIP as
         if we were parents who needed SCHIP renewal information. We asked their help for a variety
         of reasons, ranging from not understanding the process, to having lost information sent by the
         State or its contracted agency.

         To obtain SCHIP renewal information from individual State’s SCHIP web sites, we visited
         each State’s web site twice - - once during the last week of August 2001 and again during the
         first week of December 2001. For each visit to the web sites, we searched for renewal
         information only; we did not examine any other aspect of States’ SCHIP web sites. If we
         could locate renewal information, we also examined it for usefulness to the parent; that is, how
         much information about renewal would a parent know after reviewing the renewal information
         on the web site.

Definition of Terms

         Individual States use slightly different terminology to describe the SCHIP renewal processes.
         In this report, we will use ‘renewal’ to represent similar terms such as re-enrollment, re-
         certification, and redetermination. We use the term ‘parent’ to include any person with legal
         authority to act on behalf of the SCHIP-enrolled child, and we use ‘child’ to mean one or more
         children.

Limitations

         State SCHIP programs are continuously evolving so the findings for this report are limited to
         the time period when we completed data collection for the study (August 27 to December 5,
         2001). In addition, our findings may understate challenges that parents experience when
         renewing their children’s SCHIP coverage. We may have been more determined to deal with
         the SCHIP system when difficulties arose, and we are probably more knowledgeable about the
         SCHIP program than parents whose experience we were trying to simulate. Furthermore, even
         though we were able to approach other aspects of renewal as if we were a parent dealing with

SCHIP Renewal Process                                 4                                         OEI-06-01-00370
         the system, we, of course, did not have the specific child case information needed to examine
         the exchanges between case workers and parents in those States where case workers handle
         the renewal process. Also, we did not examine the actual re-enrollment rates that are
         associated with the various SCHIP renewal approaches, application forms, and notices that
         States use for SCHIP renewal.

         This study was conducted in accordance with the Quality Standards for Inspections issued by
         the President’s Council on Integrity and Efficiency.




SCHIP Renewal Process                               5                                       OEI-06-01-00370
                                    F I N D I N G S

         To evaluate the States’ SCHIP renewal process from the parent’s perspective and identify
         opportunities for improvement, we analyzed all 50 States’ renewal application forms and
         instructions, notices, SCHIP cards, States’ telephone customer services, and State SCHIP
         web sites. We encountered difficulties obtaining information when we simulated parental
         contact with renewing agencies. Because we have a wider knowledge of the system and are,
         therefore, better equipped to navigate it, we believe that parents can find the system a greater
         challenge to negotiate than we did. We identified problems with readability levels of renewal
         instructions and usability of forms. We noted the absence of written notification for parents
         regarding the outcome of the eligibility renewal process and helpful SCHIP information on
         SCHIP cards in some States. In addition, we identified problems with obtaining general
         renewal information from SCHIP customer service telephone lines and State SCHIP web sites.
         The SCHIP renewal process could be improved by making small modifications.



42 States Renew SCHIP By Mail; 6 Continue Coverage Based On
Self- Reports; 2 Require In-Person Interviews

         Mail-in forms (42 States) — Forty-two States7 send SCHIP renewal application forms to
         parents and require them to complete and return them to continue SCHIP coverage for their
         children. Mail-in forms generally appear to be burdensome; parents may experience difficulty
         in completing them because of length, lack of pre-printed information previously submitted, or
         unclear instructions. (See full discussion of forms starting on page 8). States may provide
         parents with other options, such as allowing parents to call in the information via telephone or
         make in-person visits to their case workers to complete renewal forms. Appendix A provides
         detailed information.

         Continued coverage for unchanged eligibility status (6 States) — Six States
         automatically renew SCHIP eligibility unless there is a change in status. The States send
         parents letters or forms that typically provide pre-printed information about household members
         and income/expenses supplied by the parents on their initial application. These States also
         provided parents the clearest and easiest to read SCHIP renewal materials. Of the six States,
         four send a letter and require the parent to respond, only if there is a change in income or family
         status. The other two States require slightly more effort -- the parent receives a renewal form
         that is pre-printed with previously submitted information and which must be signed and
         returned. In addition, if there is a change in eligibility status, the parent must update the
         information on the form.

         In-person interviews (2 States) — Only two States require an in-person interview for
         parents to renew their child’s SCHIP eligibility. One State sends notices to parents


SCHIP Renewal Process                                6                                         OEI-06-01-00370
         with a preset appointment time and requires parents to come to the office for the scheduled
         time. This State does not send any forms for SCHIP renewal prior to the in-person interview.
         The other State sends parents forms to be completed and brought with them to the in-person
         interview and gives the parent a 90-day period to schedule the interview at their convenience.

SCHIP renewal process approaches do not differ between the States’ SCHIP
program types

         The three types of SCHIP programs are Medicaid expansion, separate program, and a
         combination of Medicaid expansion and separate program. Our findings indicate that there is
         no relationship between SCHIP renewal process approaches and SCHIP program types.8
         (See Table 1.)

                        Table 1: SCHIP Program Types by Renewal Process Approaches

                                                               CONTINUED            IN-PERSON
                                        MAIL-IN FORMS          ELIGIBILITY           INTERVIEW
           SCHIP PROGRAM TYPES           (n = 42 States)      (n = 6 States)       (n = 2 States)

           COMBINED (19)                       15                   3                    1

           MEDICAID EXPANSION (15)             13                   1                    1

           SEPARATE PROGRAM (16)               14                   2                    0



States send prior notification postcards, follow-up notices and return envelopes
to assist parents in the SCHIP renewal process

         Eight States send pre-notification postcards or letters to the parent to let them know that they
         will be receiving forms for renewing SCHIP coverage. Twenty-one States send follow-up
         notices to parents to remind them to return their forms and documentation. State follow-up
         notices range from a simple reminder to instructions for providing specific missing information
         and/or documents, the date SCHIP coverage will expire if they do not provide the
         information/documents, and how to contact State SCHIP offices if they need help.

         Fourteen States send the parent a return envelope with the form. These envelopes minimize
         non-response by reminding parents to return the forms and providing the proper address. One
         State marks important SCHIP mail in a special way. This State includes a bright neon-yellow
         sticker on the outside of the envelope to help ensure that the parent identifies it as important
         SCHIP renewal information. States such as California, Texas, and Minnesota with diverse
         populations have an instructional SCHIP renewal handbook that is available in several other
         languages to better serve parents with limited English proficiency.




SCHIP Renewal Process                                7                                         OEI-06-01-00370
SCHIP Renewal Instructions And Forms Can Be Difficult To
Understand And Use

Thirty-three States provide parents renewal instructions that are difficult to read

         Despite different renewal approaches, all 50 States send written SCHIP renewal instruction
         notices to parents. According to the Flesch-Kincaid Index, materials written at the 7th and 8th
         grade reading level are the standard for what is readable by, and suitable for, the general public.
         In 26 States, written instructions received by parents for SCHIP renewal were at the more
         difficult reading levels of 10th to 12th grade. Seven States were at the 9th grade reading level,
         which is marginal for readability according to the standard (see Table 2).



                           Table 2: Readability of Instructions Provided at Renewal Time

           GRADE LEVEL                 5 - 6th     7 - 8th      9th       10th       11th        12th

           STATES (n =49 States)*          2         14         7          12          6          8
         *We did not receive the material from one State.




         Using the Flesch Reading Ease Scale of 0 to 100, 100 being “very easy to read” and 65
         equated with “plain English,” we found that 49 States’ renewal instructions had an average
         reading scale of 56, i.e., close to plain English. Fifteen of the 49 States fell into ‘the more
         difficult to read’ category of below 50 on the reading scale.

Of the 42 States requiring mail-in forms, 25 States created a form specifically for
renewal; 17 States require parents to re-complete the original application form

         Of the 25 States with renewal forms specifically created for renewal, 12 States pre-print some
         sections with SCHIP eligibility information previously submitted by the parent at the initial
         enrollment. Thus, parents do not have to provide the same information again. Of the 17 States
         that require parents to re-complete the original application form, only one State provides a pre-
         printed form. The original application forms used for renewal were not distinctly marked to
         indicate that they were being used for renewal purposes. In comparison, we found that forms
         created for renewal purposes only were more user-friendly than the original application forms.
         Table 3 shows this comparison. (See Methodology and Appendix A for details.)




SCHIP Renewal Process                                       8                                    OEI-06-01-00370
                             Table 3: Comparison of Renewal Forms and Original Applications
                                         for Renewing SCHIP Eligibility By Mail

              FORM CHARACTERISTICS                      RENEWAL FORMS             RE-COMPLETE ORIGINAL
                                                         (n = 25 States)              APPLICATIONS
                                                                                      (n = 17 States)

              USES PREPRINTED INFORMATION
                   Yes                                     48%      (12)                  16%      (1)
                   No                                      52%      (13)                  84%     (16)

              AVERAGE FORM LENGTH                              2 pages                     4 pages

              READING GRADE LEVEL
                   Easy (5th - 8 th))                      32%       (8)                  29%      (5)
                   Fair (9th - 10th)                       48%      (12)                  23%      (4)
                   Difficult (11th - 12th)                 20%       (5)                  47%      (8)

              USABILITY
                   Good                                    40%      (10)                  35%      (6)
                   Fair                                    52%      (13)                  59%     (10)
                   Poor                                     8%       (2)                   6%      (1)

              INCLUDES OF RIGHTS AND
              RESPONSIBILITIES*
                   Yes                                     64%      (16)                  88%     (15)
                   No                                      36%       (9)                  12%      (2)
          *“Rights and Responsibilities” certify that parents understand and authorize the conditions of eligibility.


         Of the 42 States, 10 States9 have user-friendly forms, which we defined as having at least three
         of four form characteristics listed in Table 3: pre-printed information, shorter lengths, easy
         reading grade levels, and good usability. The 10 States have only 21 percent of the SCHIP
         children ever enrolled during the year 2001, which indicates that the majority of parents are
         faced with forms that are difficult to use.10 Only one of the 10 States belongs to the top 10 most
         populous States for SCHIP enrollees.11



Parents Are Not Always Notified Of Final Renewal Outcomes

States are required to send a notice for disapproval of SCHIP renewal, but 20
States do not

         SCHIP eligibility must be renewed at least every 12 months. If eligibility is denied, suspended,
         or terminated, SCHIP regulations at 42 CFR § 457.340 require States to send parents a written
         notice. We found that States take the following actions:

         •	                   23 States send approval or disapproval notices to parents depending on the
                              outcome of the renewal.
         •                    7 States send disapproval notices only.
         •                    9 States send approval notices only.
         •                    11 States do not send a final outcome notice.

SCHIP Renewal Process                                      9                                             OEI-06-01-00370
         The 11 States that do not send a final outcome notice instead send two or more follow-up
         notices that inform parents that SCHIP coverage will be discontinued if parents do not complete
         required renewal actions by a certain deadline. Without an outcome notice that clearly indicates
         disapproval or approval at the end of the renewal process, parents may make erroneous
         assumptions about whether their child is still eligible for SCHIP coverage. In addition,
         disenrollment information explains the reasons a case may have been discontinued, whether the
         parent can provide more information in order to show eligibility, or how to contest a
         disenrollment decision.



Although All 50 States Provide Children An SCHIP Card, Only 12
States Include An Expiration Date On The Card; 24 States Do Not
Include The State SCHIP Program Name

         Including coverage dates on SCHIP cards can be a powerful reminder to parents that SCHIP
         must be renewed and may prompt parents to contact their SCHIP offices if they do not receive
         renewal materials in a timely fashion. Despite all 50 States providing these cards12 to enrolled
         children, only 12 States show both the effective and expiration dates of SCHIP coverage on the
         card. Nine States just show the effective date of the coverage on the card but not the expiration
         date.

         States typically select a unique SCHIP program name that can appear on the card and help
         build program recognition. Unique SCHIP program names, such as Husky, MIChild, LaChip
         and Badger Care, help to reduce the perceived stigma of seeking public assistance. These
         unique SCHIP names also help parents identify correspondence related to the program.
         Although these unique names appear on renewal materials, only 24 States printed their
         designated SCHIP program name on the SCHIP card. Parents may be confused if the program
         name that appears on their card is different from the name on the renewal materials that they
         receive in the mail. In such situations, when parents receive SCHIP renewal materials and do
         not recognize the SCHIP name, they may simply disregard them.




SCHIP Renewal Process                               10                                       OEI-06-01-00370
Parent Access To SCHIP Renewal Information Via Telephone
Customer Service And The Internet Is Limited

Obtaining SCHIP renewal information through States’ SCHIP customer service
telephone lines is challenging

         Using telephone numbers obtained from renewal forms and notices, SCHIP cards, and State
         SCHIP web sites, we made a total of 257 telephone calls, with a minimum of four to each State.
         The results of our telephone calls to all 50 States’ SCHIP customer service lines were:

         <               54 percent of calls resulted in obtaining requested general SCHIP renewal
                         information. Based on our experiences, persons who provided us with the
                         renewal information were almost always courteous and helpful.
         <               28 percent of the calls reached a person who was unable to provide general
                         SCHIP renewal information and/or who told us to contact the case worker.
         <	              18 percent of the calls resulted in a busy signal (7 percent), being on hold longer
                         than 10 minutes (3 percent), or reaching a voice mail box (8 percent).

         As indicated in the methodology section, we simulated parents’ experiences, but we did not
         have a specific child’s information nor could we reveal our identity. When we reached voice
         mail we were, therefore, unable to leave a message. Consequently, we were not able to
         determine if the telephone calls that reached voice mail (8 percent) would result in calls being
         returned to us.

         We found that 19 States rely on case workers for the renewal process. In these States, case
         workers are the primary source for obtaining renewal information. Of the calls made to these 19
         States, 55 percent resulted in obtaining requested SCHIP renewal information. 13 In 26 percent
         of these calls, case workers would not provide us with renewal information, even general
         information, without specific identifying information for a child, such as a social security number.
         The remaining 19 percent of these calls resulted in reaching voice mail. We did not receive any
         returned calls from the case workers because we did not leave any messages on their voice
         mails.

Of the 34 States with automated telephone menus, none offered specific SCHIP
renewal menu options

         Our telephone calls reached one of the following three venues: an operator (16 States), an
         automated system with an operator (32 States), and an automated system with no operator (2
         States). For those calls that reached an automated system, none offered specific renewal
         information or procedures, although eight of 34 States included a menu option for verifying
         eligibility status. Also, at times we were not sure if we had reached the SCHIP customer service
         telephone line since the initial greeting message from the automated



SCHIP Renewal Process                                11                                        OEI-06-01-00370
         system or operator was not clear. For example, in one State the initial greeting is “consumer
         hotline” and another State uses “State resource line.”

Of 14 States that provide any renewal information on their State SCHIP web sites,
only one State includes a sample renewal form and instructions

         State SCHIP web sites emphasize enrolling new children in SCHIP but lack information about
         renewing eligibility for an already enrolled child.14 At the time of our review, three States’
         SCHIP web sites were unavailable. Fourteen15 of 47 States provided SCHIP renewal
         information on the web sites. Of those 14 States’ SCHIP web sites, on average, it took passing
         through four to five web pages to reach the renewal information.

         In reviewing the 14 States’ SCHIP renewal information on their SCHIP web sites, we found:

         <	        1 State provides comprehensive SCHIP renewal information, including renewal forms
                   and user friendly instructions.
         <	        1 State provides a renewal form under a “Documents and Forms” section but it is
                   difficult to access the form without prior knowledge of the exact web address or the
                   name and number of the form.
         <	        2 States only provide the following information about renewal: “the client is enrolled for
                   12 months,” and “the client must re-enroll after one year”.
         <	        10 States simply mention that the client will be notified by mail when it is time to renew;
                   this information is included either in a section on “Frequently Asked Questions” or as
                   part of an on-line manual.

         Offering renewal information on the State’s SCHIP web site can be valuable to other interested
         entities, such as community health centers, community-based organizations, hospitals or private
         health care providers for their own information as well as for providing assistance to parents.
         Also, the Internet can be a very useful resource for those parents who have access to it.



Conclusions

         Renewing SCHIP coverage can be difficult for parents. We encountered difficulties obtaining
         information when we simulated parental contact even though we have greater knowledge of the
         system and are, therefore, better equipped to negotiate it. We identified problems with
         readability levels of renewal instructions and usability of forms. We noted the absence of written
         notification for parents regarding the outcome of the eligibility renewal process and helpful
         SCHIP information on SCHIP cards in some States. In addition, we identified problems with
         obtaining general renewal information from SCHIP customer service telephone lines and State
         SCHIP web sites. The SCHIP renewal process could be improved by making small
         modifications. Some States may already have implemented the recommended action or are
         planning on implementing it in the future.


SCHIP Renewal Process                                  12                                        OEI-06-01-00370
          OPPORTUNITIES FOR IMPROVEMENT

         The Centers for Medicare & Medicaid Services (CMS) and the Health Resources and Services
         Administration (HRSA) are the two main agencies responsible for the SCHIP program. We
         offer to CMS and HRSA the following steps, which could improve the SCHIP renewal process.

         CMS could:

         <	        Take steps to ensure that States comply with the Federal regulatory requirement
                   (42 CFR § 457.340) to issue final outcome notices if children are disenrolled.
         <	        Complete and issue the CMS report for model application forms and notices. These
                   models would assist States to develop forms and notices that meet the Federal
                   regulatory requirement.

         CMS and HRSA could encourage States to:

         Continue to make the renewal process easier for parents.

         <	        Use systematic guidelines to create forms that are written in plain language, offer
                   adequate space for filling in information, provide easily read print size, and minimize
                   duplicate information.
         <         Include SCHIP beginning and ending coverage dates on the SCHIP card.
         <	        Include the unique SCHIP program name on the SCHIP card and on renewal
                   correspondence - - or, at least, use one name consistently for easy recognition.

         Provide parents easier access to needed renewal information.

         <	        Add a telephone menu option specifically for SCHIP renewal to their automated
                   telephone systems.
         <	        Encourage caseworkers to leave a message on their voice mail so that they will accept
                   incoming calls during a specified time period convenient for them.
         <         Include specific renewal sections in State SCHIP web sites.




SCHIP Renewal Process                                  13                                         OEI-06-01-00370
                                       ENDNOTES

1.       Centers for Medicare & Medicaid Services website, www.CMS.gov.

2.	      Genevieve Kenney, Jennifer Haley. “Why Aren’t More Uninsured Children Enrolled in
         Medicaid or SCHIP?” Washington, D.C.: The Urban Institute. Assessing the New
         Federalism Policy Brief B-35.

3.	      Mathematica Policy Research, ASPE SCHIP evaluation announcement.
         http://www.mathematica-mpr.com

4.	      In 2000, CMS awarded a contract to the Maximus Center for Health Literacy and
         Communications Technologies to develop English and Spanish model applications and notices
         for States that are beneficiary-based. CMS was scheduled to make these notices available to
         States in the Spring of 2002. In addition to the models, Maximus is also developing guidelines
         to assist States in creating effective written communications. These guidelines build upon the
         Writing and Designing Print Materials for Beneficiaries guide, released in 1999.

5.	      We did not include the District of Columbia, Puerto Rico, American Samoa, Commonwealth of
         Northern Mariana Islands, Guam, or Virgin Islands in this inspection.

6.	      Florida did not provide a renewal application form. Rhode Island and Virginia did not provide
         sample SCHIP cards.

7.	      There are six Combination Program Type States (CA, IA, IL, MI, ND, TX) that utilize two
         offices to handle SCHIP (Medicaid expansion and a Separate component of SCHIP) and that
         also use two separate forms for renewal. We only reviewed the Separate SCHIP Program
         Type component for these States. The Medicaid expansion program forms are not included in
         the analysis.

8.       Chi Square test result was not significant.

9.	      The 10 States that have user-friendly forms are AK, IA, ID, IL, KS, LA, NE, TX, UT and
         WA.

10.	     This percentage is calculated based on number of children ever enrolled in SCHIP during the
         year 2001 in the 42 States that use forms for renewal. This information was obtained from the
         State Children’s Health Insurance Program Annual Enrollment Report, Federal Fiscal Year
         (FFY) 2001: October 1, 2000 - September 30, 2001, Centers for Medicare & Medicaid
         Services, February 2002.

11. 	    Texas is the one State out of the group with user-friendly forms that is also one of the ten most
         populous States in terms of children ever enrolled in SCHIP. The ten most populous SCHIP
         enrollee States in FFY 2001 were CA, FL, GA, MA, MD, MO, NY, OH, PA and TX. This

SCHIP Renewal Process                                  14                                      OEI-06-01-00370
         information was obtained from the State Children’s Health Insurance Program Annual
         Enrollment Report, Federal Fiscal Year (FFY) 2001: October 1, 2000 - September 30, 2001,
         Centers for Medicare & Medicaid Services, February 2002.

12.      Virginia and Rhode Island have SCHIP cards, but they did not send us a sample card.

13.	     We obtained the case worker’s telephone number from the following initial sources: 10 States
         were from SCHIP cards, 3 States were from renewal materials and 6 States from SCHIP web
         sites.

14.	     We initially surveyed State web pages during the last week of August 2001 and then again in
         December 2001 to determine if we could find SCHIP renewal information on these web sites.
         In both August and December, one State did not have an SCHIP web site and one State’s web
         page was ‘under construction.’ In December, an additional State’s web page was under
         construction. All other States had web pages for SCHIP - of these 48 States, in August, 12
         State’s web sites specifically mentioned the renewal process in some form. In December, 14
         States mentioned the renewal process in some form, representing a slight gain over a three-
         month period.

15.	     The 14 States are AK, CA, CT, IN, KY, MN, MT, NJ, NC, ND, OH, TX, WV and WY.
         Alaska provides the most comprehensive web site for SCHIP renewal information.




SCHIP Renewal Process                             15                                      OEI-06-01-00370
                                                                                                 APPENDIX A


SCHIP Forms at Renewal Time
(August 30 - September 30, 2001)
             Type of     Approach at       Content*                          Analysis Measures
             SCHIP      Renewal Time
             Program                                                   Readability (a)                  Usability (b)

                                                         Ease Scale                Grade level
                                                        (0-100 best)         (7th - 8th is standard)

 AK       Medicaid       Renewal form      Pre-print       46.6                       11                    good
 AL       Combination    Renewal form        Blank         58.3                       10.3                   fair
 AR       Medicaid       Renewal form        Blank         43.9                       10                     fair
 AZ       Separate       Renewal form        Blank         57.9                       8.9                    fair
 CA       Combination    Renewal form        Blank         47.7                       11.5                   fair
 CO       Separate       Original form       Blank         64.1                       8.3                    fair
 CT       Combination    Original form     Blank (c)       62.2                       8.3                    fair
 DE       Separate       Original form       Blank         33.5                       12                    good
 FL       Combination      Continued       ( No Info)
 GA       Separate         Continued         N/A           55.6                          9                   n/a
 HI       Medicaid       Original form       Blank         30.7                       12                     fair
 IA       Combination    Renewal form      Pre-print       80.2                       5.2                   good
 ID       Medicaid      Renewal form (d)   Pre-print        83                        5.5                   good
 IL       Combination    Renewal form      Pre-print       43.4                       12                    good
 IN       Combination   Renewal form (e)     Blank         59.6                       9.9                    fair
 KS       Separate       Original form       Blank         66.2                          7                  good
 KY       Combination      In-person         N/A           55.4                       10.2                   n/a
 LA       Medicaid       Renewal form        Blank         68.5                          7                  good
 MA       Combination    Original form       Blank         62.3                       9.6                    fair
 MD       Combination    Original form       Blank         64.3                       8.5                    fair
 ME       Combination    Renewal form        Blank         54.8                       8.8                    fair
 MI       Combination    Renewal form      Pre-print       58.9                       9.8                   good
 MN       Medicaid       Renewal form        Blank         61.3                       8.4                    fair
 MO       Medicaid       Renewal form        Blank         43.3                       10                     fair
 MS       Combination      Continued         N/A           55.6                          9                   n/a
 MT       Separate       Original form       Blank         40.5                       11.8                  poor
 NC       Separate       Renewal form        Blank         56.9                       10                     fair
 ND       Combination    Renewal form      Pre-print       56.2                       9.1                    fair
 NE       Medicaid       Renewal form        Blank         70.3                          7                  good
 NH       Combination    Original form       Blank         49.6                       11.3                   fair
 NJ       Combination    Continued (f)     Pre-print       41.9                       12                    good


                                                   __________
SCHIP Renewal Process                                  16                                              OEI-06-01-00370
             Type of            Approach at           Content*                             Analysis Measures
             SCHIP             Renewal Time
             Program                                                                 Readability (a)                   Usability (b)

                                                                       Ease Scale                Grade level
                                                                      (0-100 best)         (7th - 8th is standard)

 NM       Medicaid             Original form (g)        Blank             39.3                      11.9                    good
 NV       Separate              Continued (f)         Pre-print           63.4                      8.2                     good
 NY       Combination           Original form           Blank             56.1                      9.9                     fair
 OH       Medicaid              Original form           Blank             45.4                      11.4                    fair
 OK       Medicaid              Renewal form            Blank             48.1                      10.3                    poor
 OR       Separate              Original form           Blank             68.3                         7                    fair
 PA       Separate              Renewal form            Blank             52.2                      9.7                     good
 RI       Medicaid              Renewal form            Blank             63.6                      7.7                     fair
 SC       Medicaid                Continued              N/A               68                          8                    n/a
 SD       Combination           Renewal form            Blank             43.5                      11.4                    fair
 TN       Medicaid                In-person             Blank             69.7                      7.8                     poor
 TX       Combination           Renewal form          Pre-print           66.5                      8.4                     good
 UT       Separate              Renewal form          Pre-print           61.1                      8.7                     good
 VA       Separate              Original form         Pre-print           50.1                      12                      good
 VT       Separate              Original form           Blank             54.6                      9.7                     fair
 WA       Separate              Original form           Blank             64.3                      8.2                     good
 WI       Medicaid              Original form           Blank              46                       11.1                    good
 WV       Separate              Renewal form          Pre-print           69.1                      7.1                     poor
 WY       Separate              Renewal form          Pre-print           47.4                      10.9                    fair

 *Content: States using pre-printed information contain most recent application and account information on the
 client. If the information is still correct, the parent is required to sign and date the form and send it back. However,
 if the information has changed, parents are instructed to cross out and write in new information and return the form.
 (a) Readability is an objective measure using the Microsoft® Word readability program which provides scores
 using the Flesch Reading Ease Scale and the Flesch-Kincaid Index.
 (b) Usability of the form was rated according to ‘white spaces’ on the form, readability of font size, and adequacy of
 the fields for information requested. See Methodology section of the report.
 (c) CT has very little pre-printed information provided on form. It is mostly blank.
 (d) ID uses multiple methods. A form is required if changes in circumstances and will allow continued eligibility.
 (e) IN uses renewal forms, but encourages in-person office visit. They also allow clients to renew over the
 telephone and update new information.
 (f) NJ and NV use a continued automatic approach unless the parents report changes to their circumstances,
 although parents must respond with a signature to continue coverage. These States have a renewal form, however,
 it is not required unless the parent has a change of circumstances.
 (g) NM requires the form or an in-person renewal visit.




                                                               __________
SCHIP Renewal Process                                              17                                                OEI-06-01-00370
                          B I B L I O G R A P H Y

The Center for Health Literacy and Communication Technologies. Simplifying Medicaid/SCHIP
Enrollment and Retention Forms (SMERF). What People are Saying About Notices and Apps. -
English, Maximus.

Cunningham, Peter J. “Targeting Communities with High Rates of Uninsured Children”, Health Affairs, pp.
20-29.

Dick, Andrew R., Andrew Allison, Susan G. Haber, Cindy Brach, Elizabeth Shenkman. The Consequences
of States’ Policies for SCHIP Disenrollment, 2002, The Child Health Insurance Research Initiative.

The George Washington University Center of Health Policy and Research, Room to Grow: Promoting Child
Development Through Medicaid and CHIP, The Commonwealth Fund, July 2001.

Health Care Financing Administration (CMS), Outreach & Eligibility Division, Model Application and Best
Practice Guide, GS-23F-9796H, 2000.

Kannel, Susan, Michael Perry, Trish Riley, Cynthia Pernice, What Parents Say: Why Eligible Children Lose
SCHIP, June 2001, National Academy for State Health Policy.

Kenney, Genevieve, Jennifer Haley. “Why Aren’t More Uninsured Children Enrolled in Medicaid or SCHIP?”
Washington, D.C.: The Urban Institute. Assessing the New Federalism Policy Brief B-35.

Kenney, Genevieve, Jennifer Haley, Lisa Dubay “How Familiar Are Low-Income Parents with Medicaid and
SCHIP?” Washington, D.C.: The Urban Institute. Assessing the New Federalism Policy Brief B-34.

Kenney, Genevieve, Jennifer Haley, Frank Ullman, “Most Uninsured Children Are in Families Served by
Government Programs” Washington, D.C.: The Urban Institute. Assessing the New Federalism Policy Brief
B-4.

Kaiser Commission on Medicaid and the Uninsured. 2000. Making it Simple: Medicaid and CHIP Income
Eligibility Guidelines and Enrollment Procedures, Prepared by Donna Cohen and Laura Cox. Washington,
D.C.: Center on Budget and Policy Priorities, 2000.

Kaiser Commission on Medicaid and the Uninsured. 2000. CHIP Program Enrollment: June 2000,
Prepared by Vernon K. Smith Ph.D. Lansing, MI: Health Management Associates, 2001.

Letter to The Honorable Christopher S. Bond, dated July 25, 2001. Subject: Children’s Health Insurance:
SCHIP Enrollment and Expenditure Information, signed by Kathryn G. Allen, Director, Health Care-Medical
and Private Health Insurance Issues, U.S. Government Accounting Office.

                                              __________

SCHIP Renewal Process                             18                                   OEI-06-01-00370
Lipsey, Mark, David Wilson, Practical Meta-Analysis, Applied Social Research Methods Series,
Vol. XX, Thousand Oaks, CA, Sage Publications, Inc.

National Governor’s Association (NGA), Retention and Reenrollment of Children in SCHIP and
Medicaid, available at http://www.nga.org.

National Governor’s Association (NGA), Strategies for Retention and Reenrollment of Children in
SCHIP and Medicaid, available at http://www.nga.org.

Office of Inspector General, Department of Health and Human Services, The Children’s Health Insurance
Program: State Application and Enrollment Processes: An Early Report from the Front Lines, OEI-05-
98-00310, 1999.

Office of Inspector General, Department of Health and Human Services, State Children’s Health Insurance
Program: Assessment of State Evaluations Reports, OEI-05-00-00240, 2001.

Pernice, Cynthia, Kirsten Wysen, Trish Riley, Neva Kaye, Charting SCHIP: Report of the Second
National Survey of the State Children’s Health Insurance Program, National Academy for State Health
Policy, July 2001.

Ross, Donna Cohen, Laura Cox, Medicaid for Children and CHIP Income Eligibility Guidelines and
Enrollment Procedures, Center on Budget and Policy Priorities, October 2000.

Urban Institute, “Parents’ Reasons for Not Obtaining Public Health Insurance for Children More Complex
Than Once Thought”, http://www.urban.org/news/pressrel/p010702.html, July, 2, 2001.

Wooldridge, Judith, Brenda Cox, Mary Harrington, Lorenzo Moreno, Christopher Trenholm, Welmoet van
Kammen, Will Black, Amy Zambrowski, “Design Report: Congressionally Mandated Evaluation of the State
Children’s Health Insurance Program,” Mathematica Policy Research, Inc. Contract number HHS-100-01-
0002, 2001.




                                              __________

SCHIP Renewal Process                             19                                   OEI-06-01-00370
                          ACKNOWLEDGMENTS


This report was prepared under the direction of Judith V. Tyler, Regional Inspector General for Evaluation and

Inspections in Dallas. Other principal Office of Evaluation and Inspections staff who contributed include:


Nancy H. Juhn, Ph.D., Team Leader                               Alan Levine, Program Specialist

Marnette E. Dhooghe, Program Analyst                            Joan Richardson, Program Specialist

Gina Collins, Program Analyst

Lisa White, Administrative Officer





                                                __________

SCHIP Renewal Process                               20                                     OEI-06-01-00370
